HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Indiana From October 1, 1998, Through December 31, 2005," (A-05-06-00038)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
Undistributable Child Support Collections in Indiana From October 1, 1998,
Through December 31, 2005," (A-05-06-00038)
March 19, 2007
Complete Text of Report is available in PDF format (699 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period October 1, 1998, through December 31, 2005, the Indiana Department of Child Services (the State agency) did not recognize or report program income of $2,019,859 ($1,333,107 Federal share) for undistributable child support collections and interest earned.
We recommended that the State agency: (1) ensure that undistributable collections totaling $1,320,722 ($871,677 Federal share) are transferred to the Attorney General and reported as program income; (2) report program income for undistributable collections totaling $650,566 ($429,373 Federal share) that were transferred to the Attorney General and interest earned on child support funds held in Marion County totaling $48,571 ($32,057 Federal share); (3) review undistributable child support collections for all county Clerk of the Circuit Court offices to ensure proper transfers to the Attorney General and proper reporting of program income; (4) implement procedures and controls to ensure that undistributable child support collections are identified by the State, transferred to the Attorney General, reported to the Office of Child Support Enforcement, and recognized as program income; and (5) provide program oversight and training to county Clerk of the Circuit Court offices to ensure that undistributable collections and interest are identified and reported as program income.